No. 20-1771
IN THE

Supreme Court of the United States
Charles Simonson,
Petitioner
-vBorough of Taylor, Pennsylvania, et al.,
Respondents

On Petition For Writ of Certiorari
To the Court of Appeals for the Third Circuit

REPLY BRIEF FOR PETITIONER

Cynthia L. Pollick, Esq., LLM, MA
Counsel of Record
THE EMPLOYMENT LAW FIRM
PO Box 757
Clarks Summit PA 18411
(570) 510-7630
pollick@lawyer.com

TABLE OF CONTENTS
TABLE OF CONTENTS……………………………………………......... i
TABLE OF AUTHORITIES……………………………………………... ii
ARGUMENT………………………………………..……………………… 1
I.

There was no independent collaborative evidence, and the court
below did not require the same to make a warrantless arrest;
however, the Seventh and Ninth Circuits require more than just
a motivated victim statement to make an arrest, which is the
correct standard in determining probable cause…………… 1

II.

There is a circuit split since collaborative evidence is necessary
besides the victim-complainant allegations in the Seventh and
Ninth Circuits but not in the Third Circuit………………… 6

III.

The lower court erred in affirming summary judgment since a
reasonable jury could find that Respondents did not have
probable cause to arrest Charles Simonson since more than his
divorcing wife’s proven false allegations were needed……. 7

CONCLUSION…………………………………………………………….. 9

i

TABLE OF AUTHORITIES
CASES
Arpin v. Santa Clara Valley Transp. Agency,
261 F.3d 912 (9th Cir. 2001)……………………………………

3

BeVier v. Hucal,
806 F.2d 123 (7th Cir. 1986)………………………..…………..

3

ii

ARGUMENT
I.

There was no independent collaborative evidence, and
the court below did not require the same to make a
warrantless arrest; however, the Seventh and Ninth
Circuits require more than just a motivated victim
statement to make an arrest, which is the correct
standard in determining probable cause
With the growing number of exonerations and police killings, the

courts can no longer turn a blind eye to law enforcement’s arrests or
pursuits. No longer can society rely on the word of a law enforcement
officer since some have dishonored their oath to serve and protect and
uphold the Constitutional of the United States. There must be evidence
independent of a motivated victim’s allegations before an arrest can be
made for a crime, especially for the heinous accusation of attempted
murder from an estranged spouse without a judge ensuring the evidence
supports such a charge since the price tag of that arrest was almost a
million dollars’ bail. (App, B at 13).
One and half hours after five days is insufficient time for an
attempted murder investigation when the police did not interview one
single witness, one single neighbor who may have heard the gunfire to
ensure they were not making a mistake that had profound effects on a
citizen. With an arrest, a citizen loses his liberty and most likely his
1

family, his property and his job. All of which is necessary to fight a bad
arrest; and once imprisoned, there is no hope from inside the prison walls
to fight injustice.
Respondents minimize what happened to Charles Simonson since
they mention only at the end of the summary of facts that Loretta
Simonson recanted and not that she was arrested and pled guilty for
providing false statements to authorities. Respondents diminish the
effects of the false arrest by emphasizing that Charles Simonson was set
free from prison the next day. However, Respondents fail to appreciate
what harm they caused, the fear they instilled, and the severity of the
injustice that could have occurred had a good neighbor not come forward
and reported what she knew and heard the night of the alleged attempted
murder six days earlier. (App, A. at 3).
A trained police officer should have ensured he had collaborative
evidence before he relied solely on the word of a woman who was
divorcing her husband and had many different divorce motivations for
wanting to send her husband to prison. If that occurred, this Petition for
Writ of Certiorari would not need to be filed. But it did not; and neither
of the courts below saw the need for collaborative evidence, which is

2

necessary to help society swing the pendulum back to an equal balance
of power between law enforcement and society in which law enforcement
is not more important than everyday citizens.
The Seventh and Ninth Circuit require more than just a victim’s
statement to establish probable cause, which is the correct standard since
it requires the necessary collaborative evidence before making an arrest
that changes a man’s life forever. BeVier v. Hucal, 806 F.2d 123, 128 (7th
Cir. 1986); Arpin v. Santa Clara Valley Transp. Agency, 261 F.3d 912,
925 (9th Cir. 2001). The Seventh and Ninth cases discuss the totality of
circumstances, but they also require collaborative evidence, which should
be the normal standard in all circuits to establish probable cause for a
warrantless arrest.
Respondents argue that there is a difference in the level of crime in
the Ninth Circuit case; however, the more severe of a crime, the more
demanding the assessment of probable cause should be since there is a
high probability that the suspect will not be able to make bond, as was
the case for Charles Simonson, and he could have languished in prison
had a neighbor not come forward the next day.

3

The fact that the police did not interview anyone is the problem,
and this Court has the opportunity to correct that problem and ensure
that less false arrests are made since the motive to lie is always present
with witnesses, especially someone who has something to gain from an
arrest like Loretta Simonson had in this case. Law enforcement needs
collaborative evidence to ensure that they are making a good arrest since
their actions can destroy lives.
Erroneously, Respondents state that a trauma psychologist was
involved, but there was no such person who assessed the state of the
alleged victim. And it would not matter anyway because that person is
for the alleged victim and not an independent trained assessor of
behavior. The victim advocate was not a psychologist, and her position
was to support the victim as an arm of the police and not a trained law
enforcement officer who gathers independent proof, not mere speculation,
that a crime occurred.
Loretta Simonson was not credible since she never called the police
on the night of the alleged events, which is remarkable since such a tale
she told would have made any normal, rational victim call 911. The fact
that Loretta Simonson did not call 911 proves that anything she said was

4

questionable at best since none of police officers involved asked her that
simple question.
As noted by the Seventh Circuit, “Hucal's mistake was failing to
question the parents, the Red Cross Center personnel, or the teen-ager
watching the children. This mistake was unreasonable. A few questions
would have given defendant some important information.” BeVier v.
Hucal, 806 F.2d 123, 127 (7th Cir. 1986). As the Seventh Circuit
explained had the police officer asked questions,
[h]e would have discovered that Robert and Annette had
instructed each of the babysitters to keep the children in the
shade and their diapers dry, sanitation facilities were nearby,
Annette gave the boys daily showers, Clifford's diaper rash
had been seen by a doctor, and Robert and Annette were
treating it with the proper medication. Once this information
surfaced, Hucal would have known that the BeViers were not
neglecting their children. BeVier v. Hucal, 806 F.2d 123, 127
(7th Cir. 1986).
Respondent Roche did not even talk to Loretta Simonson before he
arrested Charles Simonson, so how could he, the arresting officer, assess
her credibility, which the entire 1 ½ hour case was built and dependent
on Loretta Simonson. Just as the Seventh Circuit concluded, “… Hucal
was unreasonable in not making those inquiries”, Respondent Roche was
unreasonable in failing to ask the neighbors what they saw and heard.

5

Under that standard, Petitioner requests that this Court grant his
Petition and find that collaborate evidence is always necessary before a
warrantless arrest can be made regardless of the level of offense since
that requirement ensures that society is protected from law enforcement.
II.

There is a circuit split since collaborative evidence is
necessary besides the victim-complainant allegations
in the Seventh and Ninth Circuits but not in the Third
Circuit

Respondents argue that probable cause is fluid; however, it is not
as fluid as Respondents’ desire since the Seventh and Ninth Circuits
require more than just the victim’s allegations to find probable cause.
Consequently, there is a circuit split since the Third Circuit has held that
a victim-complainant is sufficient to establish probable cause.
Respondents continue to claim that the evidence in this case
involved more than just estranged, divorcing wife, Loretta Simonson’s
version of events. However, that is not the case. Everything relied upon
by the Respondents comes from Loretta Simonson’s mouth. There is no
other evidence or witness statement that collaborated her grandiose
version of events of what allegedly occurred five days earlier.
Those allegations did not prompt Loretta Simonson to call 911. Any
reasonable police officer would question why since her husband just tried
6

to kill her while she was in bed and she did not call the police when she
suffered an injury. Had Respondents asked that question even to
themselves, the answer would have led them to interview the neighbors
about what they saw or heard since Loretta Simonson’s actions, or more
importantly her inactions on the night in question make no sense.
Just as the Seventh and Ninth Circuits require, Respondents were
required to investigate further before taking the drastic step of arresting
a man for attempted murder. Had the Respondents taken more time and
interviewed the neighbors, they would have learned that it was Loretta
Simonson who had the shotgun in her possession and she caused injury
to herself when the gun recoiled after it went off.
III.

The lower court erred in affirming summary judgment
since a reasonable jury could find that Respondents
did not have probable cause to arrest Charles
Simonson since more than his divorcing wife’s proven
false allegations were needed

The evidence shows that Respondents were more concerned about
the news media coming to a small borough and gaining television
attention for their efforts in catching an attempted murderer, than
upholding their obligation and duty to arrest a person who actual
committed a crime. (App. B, at 33).

7

Here, there is no question that a reasonable jury could conclude
that Respondents did not have probable cause to arrest Charles
Simonson for attempted murder since Loretta Simonson’s wild
allegations made no sense and were proven false. Had Respondents
interviewed just one neighbor of Loretta Simonson, Leilani Raguckas,
they would have concluded they did not have probable cause to arrest a
man for attempted murder and change his life forever since Loretta
Simonson was lying. Consequently, the Third Circuit erred in affirming
summary judgment to Respondents.
The standard of probable cause to make a warrantless arrest
required independent evidence besides a victim’s allegations since
innocent citizens should not spend one night in jail for a crime they did
not commit. It is the police who initiate arrests, and if an arrest is not
going to reviewed by a neutral magistrate, law enforcement has a duty to
society to ensure they have sufficient independent evidence to collaborate
a victim’s story since she may have a motive to lie. In adopting the
standard held in the Seventh and Ninth Circuits, this Court is ensuring
that innocent people are not falsely arrested and prosecuted for crimes
they did not commit.

8

CONCLUSION
For the foregoing reasons, the petition for a writ of certiorari should
be granted.

Respectfully submitted,

Cynthia L. Pollick, Esq., LLM, MA
Counsel of Record
THE EMPLOYMENT LAW FIRM
PO Box 757
Clarks Summit PA 18411
(570) 510-7630
pollick@lawyer.com

Date: August 3, 2021

9

